Curtis, Mallet-Prevost, Colt & Mosle LLP
Almaty
Beijing
Bogotá
Buenos Aires
Dubai
Frankfurt
Geneva
Houston

London
Mexico City
Milan
Muscat
Nur-Sultan
Paris
Rome
Washington, D.C.

101 Park Avenue
New York, New York 10178-0061

Telephone +1 212 696 6000
Facsimile +1 212 697 1559
www.curtis.com

Eliot Lauer
Tel: +1 212 696 6192
Fax: +1 917 368 8992
E-Mail: elauer@curtis.com

March 17, 2021
VIA E-FILE
Scott S. Harris
Clerk of the Supreme Court
Supreme Court of the United States
1 First Street NE
Washington, DC 20543
Re: Grupo Cementos de Chihuahua S.A.B. de C.V., et al. v. Compañía de
Inversiones Mercantiles, S.A., No. 20-1033
Dear Mr. Harris:
I am counsel of record for Respondent, Compañía de Inversiones Mercantiles, S.A., in the
above-captioned matter. I received your letter of March 15, 2021, requesting that Respondent file
a response to the petition for certiorari on or before April 14, 2021. Pursuant to Supreme Court
Rule 30.4, I respectfully request a 30-day extension of time, to and including May 14, 2021, within
which to file a brief in opposition.
In support of this request, I note that counsel is based in New York City, where attorneys
and staff continue to work remotely due to the Covid-19 pandemic. In light of the delays associated
with remote work, as well as the upcoming Passover holiday from March 27 through April 5,
Respondent seeks the aforementioned extension. Counsel for Petitioners consents to this
extension.

Sincerely,
s/ Eliot Lauer
Eliot Lauer
cc:

Derek L. Shaffer
Counsel for Petitioners
Via e-mail at derekshaffer@quinnemanuel.com

